CERTIFICATE OF SERVICE
NO. 21-134
Jesus Vasquez, Jr. And Penney Leigh Vasquez
Petitioners,
v.
Wilmington Savings Fund Society, FSB, as Trustee of Stanwich Mortgage Trust F
Respondent.
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the
WILMINGTON SAVINGS FUND SOCIETY, FSB, AS TRUSTEE OF STANWICH MORTGAGE TRUST F BRIEF IN
OPPOSITION, by mailing three (3) true and correct copies of the same by USPS Priority mail, prepaid
for delivery to the following address.
Richard Preston Cook
Richard P. Cook, PLLC
7036 Wrightsville Avenue
Suite 101
Wilmington, NC 28403
(910) 399-3458
richard@capefeardebtrelief.com
Counsel for Vasquez, et al.

Lucas DeDeus

October 1, 2021
SCP Tracking: Mansfield-50 North Laura Street, Ste. 3900-Cover Orange

